                                        September 30, 2005




MEMORANDUM TO:             Chairman Diaz



FROM:                      Hubert T. Bell/RA/
                           Inspector General


SUBJECT:                   INSPECTOR GENERAL’S ASSESSMENT OF THE
                           MOST SERIOUS MANAGEMENT CHALLENGES
                           FACING NRC (OIG-05-A-23)


SUMMARY

On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000
(the Act), which requires Federal agencies to provide financial and performance
management information in a more meaningful and useful format for the Congress,
the President, and the public. Included in the Act is the requirement that, on an
annual basis, the Inspector General of each Federal agency summarize what he or
she considers to be the most serious management and performance challenges
facing the agency and assess the agency’s progress in addressing those
challenges. In compliance with the Act, I am submitting my annual assessment of
the most serious management challenges confronting the United States Nuclear
Regulatory Commission (NRC). Also, included in this submission is a listing of
Office of the Inspector General (OIG) audit and investigative reports issued during
FY 2005. These reports address the challenges identified.

Congress left the determination and threshold of what constitutes a most serious
management challenge to the discretion of the Inspectors General. Therefore, I
applied the following definition in preparing my statement:

      Serious management challenges are mission critical areas or programs that
      have the potential for a perennial weakness or vulnerability that, without
      substantial management attention, would seriously impact agency
      operations or strategic goals.
                   Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



The most serious management challenges facing NRC may be, but are not
necessarily, areas that are problematic for the agency. The challenges identified
represent critical areas or difficult tasks that warrant high-level management
attention. This year, I identified nine management challenges that I consider to be
the most serious. These challenges are essentially the same ones identified last
year, with minor title changes for challenges 3 and 4.

DISCUSSION

The most serious management challenges that follow are not ranked in any order
of importance.


CHALLENGE 1
Protection of nuclear material used for civilian purposes.

NRC’s Strategic Plan provides for “Excellence in regulating the safe and secure
use and management of radioactive materials for the public good.” NRC is
authorized to grant licenses for the possession and use of radioactive materials
(e.g., byproduct material,1 source material,2 and special nuclear material3) and
establish regulations to govern the possession and use of those materials. NRC’s
regulations require that certain materials licensees have extensive material control
and accounting programs as a condition of their license. All other license
applicants (including those requesting authorization to possess small quantities of
special nuclear materials) must develop and implement plans that demonstrate a
commitment to accurately control and account for radioactive materials.

One of NRC’s and the nuclear industry’s highest priorities must be ensuring
adequate protection of public health and safety. Heightened sensitivity to the
control of special nuclear materials warrants NRC’s serious attention to its
licensees’ material control and accounting activities. The challenges currently
facing NRC will be to (1) ensure that there are adequate inspections to verify



1 Byproduct material – (1) Any radioactive material (except special nuclear material) yielded in or made
radioactive by exposure to the radiation incident to the process of producing or utilizing special nuclear
material and (2) the tailings or wastes produced by the extraction or concentration of uranium or thorium from
any ore processed primarily for its source material content.
[Source: Atomic Energy Act of 1954, Section 11 (e)]

2 Source material – Uranium or thorium or any combination thereof, in any physical or chemical form; or ores
that contain by weight 0.05 percent or more of (1) uranium, (2) thorium, or (3) any combination thereof.
Source material includes depleted uranium and natural uranium, but not “special nuclear material.”
[Source: Title 10 Code of Federal Regulations (CFR) Part 40.4]

3 Special nuclear material – Plutonium, uranium-233, uranium enriched in the isotopes uranium-233 or
uranium-235, and any other material which the Commission, pursuant to the provisions of Section 51 of the
Atomic Energy Act of 1954, as amended, determines to be special nuclear material, but does not include
source material; or any material artificially enriched by any of the foregoing, but does not include source
material. [Source: Title 10 CFR Part 74.4]

                                                       2
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



 licensees’ commitments to their material control and accounting programs, and a
 reliable special nuclear materials system; and (2) establish a means to ensure the
 accurate accounting for radioactive materials, especially those with the greatest
 potential to impact public health and safety.

 The NRC has proposed rulemaking for a National Source Tracking System effort to
 improve accountability and tracking of radioactive sources. The system is
 proposed as a cradle to grave tracking system of high risk sealed sources. The
 NRC has also worked with the Department of Energy (DOE) to facilitate recovery
 of selected orphaned sources. Further, NRC also issued security orders to
 selected material licensees requiring upgraded physical security.

 NRC regulations require stringent design, testing, and monitoring in the handling
 and storage of spent nuclear fuel. In July 2005, NRC began site-specific spent fuel
 pool assessments to identify additional enhancements. Nine plant assessments
 were completed in July and an additional 57 assessments are scheduled for
 completion by the end of the calendar year.


Related Office of the Inspector General Work

    Audits

    •         Audit of NRC’s Baseline Inspection Program
    •         Audit of NRC’s High-Level Waste Program
    •         Audit of NRC’s Generic Communications Program
    •         Audit of the Decommissioning Program

    Investigations

    •         Review of NRC Oversight of Licensee Fitness for Duty Program
    •         Inadequate Handling of Inspection Finding
    •         Adequacy of NRC Oversight of Lost Nuclear Material
    •         NRC’s Oversight of the Hope Creek Nuclear Power Plant




                                              3
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 2
Protection of information.

Information is an asset and must be protected. Information needing protection
includes sensitive unclassified and classified information as well as computer
security information.

       Sensitive Unclassified and Classified Information

As a result of increased terrorist activity worldwide, NRC continues to reexamine
its practice of releasing most documents to the public. NRC employees create and
work on significant amounts of information that is sensitive and needs to be
protected. Such information can be sensitive unclassified information or classified
national security information contained in written documents and various electronic
databases.

The agency has made strides in evaluating information that should be withheld
from public release. There have been some instances, however, where
stakeholders discovered certain documents that should have been publicly
available, but instead were designated as non-publicly available. In other
instances, sensitive unclassified documents including Safeguards Information
(SGI) that should have been withheld were inadvertently released. In light of these
occurrences, the agency needs to be particularly vigilant in determining which
documents and information should be released.

NRC reviewed other areas to ensure the appropriate release of documents to the
public. For example, the Sensitive Information Screening Project (SISP) has
provided guidance on the handling of information that may be of benefit to
terrorists and the treatment of such information. The agency also developed new
guidance for handling sensitive unclassified information in the Agencywide
Documents Access and Management System (ADAMS) that could potentially be
useful to a terrorist. The Commission approved criteria for staff to use in
performing reviews of documents to ensure that only appropriate information is
publicly released.

The Executive Director for Operations (EDO) has emphasized the importance of
being vigilant about documents sent via e-mail, because the implications of an
inadvertent e-mail transmittal of sensitive unclassified or classified information can
be enormous. The EDO reminded NRC employees that they should not send
sensitive or classified documents through the e-mail system. In addition, on
July 29, 2005, NRC issued a policy reminder that camera-equipped cell phones
pose a security as well as a privacy concern because they enable people to
covertly photograph images or scenes and transmit them instantly to the Internet.




                                              4
                Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



         Computer Security

Computer security is the protection afforded to an information system in order to
attain the objective of preserving the integrity, availability, and confidentiality of the
information system resources (including hardware, software, firmware,
information/data, and telecommunications).

The Federal Information Security Management Act (FISMA) was enacted on
December 17, 2002. FISMA outlines the information security management
requirements which all agencies must implement and report annually to the Office
of Management and Budget (OMB) and Congress on the effectiveness of their
security programs. This evaluation must include testing of the effectiveness of
information security policies, procedures, and practices of a representative subset
of the agency’s information systems. In addition to the agency review, FISMA
requires an annual evaluation to be performed by the Office of the Inspector
General. This year’s OIG evaluation discovered weaknesses in the following
security controls: certification and accreditation process, automated information
system inventory process, security controls for standalone personal computers and
laptops, listed systems that process safeguards and/or classified information, and
weaknesses in complying with many of the OMB requirements for FISMA
implementation.

Related Office of the Inspector General Work

     Audits

     •         Audit of NRC’s Drug Testing Program
     •         Independent Evaluation of NRC’s Implementation of the Federal
               Information Security Management Act (FISMA) for Fiscal Year 2005
     •         Audit of the Reactor Program System
     •         Audit of NRC’s Telecommunications Program
     •         Audit of NRC’s Policy and Practices Concerning Camera Cell Phones

     Investigations

     •         Failure to Docket Licensee Information
     •         Follow-up to Inadvertent Releases of SGI to Unauthorized Individuals
     •         Mishandling of Allegation Regarding Design Basis Information




                                               5
                Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




 CHALLENGE 3
 Development and implementation of a risk-informed and performance-based
 regulatory approach.

The Chairman has stated that NRC has increased its safety focus on licensing and
oversight activities through application of a balanced combination of experience,
deterministic models, and probabilistic analysis. This approach is known as risk-
informed and performance-based regulation. However, NRC continues to face
different challenges in making its regulatory framework more risk-informed for
nuclear power plants and nuclear material licensees. Incorporating risk analysis into
regulatory decisions improves the regulatory process by focusing both NRC and
licensee attention and activities on the areas of highest risk. The result may be
reducing unnecessary burden on licensees and increasing the efficiency and
effectiveness of the agency’s resources.

NRC conducts inspections at the Nation’s 104 nuclear power reactors licensed to
operate. The NRC Reactor Inspection Program and Reactor Performance
Assessment Program are combined into a single program. This combined program
implements the revised reactor oversight process (ROP). An integral part of the
ROP is the baseline inspection program that was developed using a risk-informed
approach to determine a comprehensive list of areas to inspect within seven
established cornerstones of safety. While the baseline inspection program
framework is generally sound, OIG identified opportunities for improvement. The
baseline inspection program is the minimum inspection oversight that should be
conducted at each nuclear power plant, but the agency lacks a mechanism to
assess the overall effectiveness and quality of this critical program.

Another challenge is NRC’s use of Probabilistic Risk Assessment (PRA). This
challenge reflects NRC’s commitment to increase the use of PRA technology in all
regulatory matters to the extent supported by the state-of-the-art in PRA methods
and data and in a manner that complements the agency’s approach and philosophy.
Implementation of this policy is expected to improve NRC’s regulation of licensees.

Related Office of the Inspector General Work

     Audits

     •         Audit of NRC’s Baseline Inspection Program
     •         Audit of NRC’s Generic Communications Program




                                               6
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 4
Ability to modify regulatory processes to meet a changing environment.

As a result of the changing regulatory and business environment, areas of
increased emphasis exist. These areas are detailed in the NRC Strategic Plan.
External as well as internal demands drive the NRC towards ensuring that it is
more open in its regulatory processes. This openness results in a constant
balancing of long-term improvement efforts and short-term emergent issues. NRC
continues to face challenges related to its ability to address increased workloads
associated with reactor license renewals, new plant licensing, licensee requests to
increase power levels, and high-level waste disposal.

       Reactor License Renewals

NRC’s license renewal program is one of the major elements of its regulatory work.
In accordance with the Atomic Energy Act, NRC approves and issues licenses for
commercial power reactors to operate for up to 40 years. The Act allows the NRC
to approve these licenses to be renewed for an additional 20 years. Among the
nuclear power plants that have not yet had their license renewed, the first of these
40-year operating licenses will expire in 2009. Approximately 25 percent of the
remaining licenses will expire by 2015. The decision whether to seek a renewal is
the responsibility of the nuclear power plant owner(s). There continues to be a
sustained strong interest in license renewal from utilities. To regulate this activity,
NRC reviews the applicants’ technical submittals and environmental application
materials to verify information submitted in the renewal applications. An
application for license renewal addresses technical and environmental issues.

       New Plant Licensing

There is a growing list of United States utilities (licensees) that are publicly
considering new plant construction in the U.S. NRC’s licensing process outlined in
10 CFR Part 52 involves a review of Early Site Permits (ESP), Standard Design
Certifications, and/or Combined Operating Licenses (COLs) for nuclear facilities.
The COLs for nuclear power facilities involves the issuance of a combined
construction permit and a conditional operating license for a nuclear power facility.
NRC is involved in several significant activities to ensure that it is prepared to
review the first of these COL applications which is expected in 2007-2008. Some
of these activities include:

   •    Reviewing industry’s guidelines for a COL application,

   •    Determining what actions are necessary to prepare for receipt of a COL
        application,

   •    Assessing rulemaking activities for the licensing process, and


                                              7
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



   •    Reviewing ESP applications.

Although the Part 52 application process has advantages for both NRC and the
nuclear industry, it nevertheless, represents a significant challenge through the
increased workload and pressure on the agency to create the infrastructure
necessary to support review of new plant licensing applications.

Also, NRC has certified reactor designs, which the agency reviews and approves
for general use. Licensees’ use of a pre-approved design streamlines and
shortens the NRC review process, ultimately paving the way for new reactors to be
built and licensed.

       Licensee Requests to Increase Power Levels

Many licensees have sought NRC approval to operate their plants at a higher
power level than the level authorized in the original license by submitting a request
to increase reactor power output. As of April 2005, the NRC approved over 105
power uprate increases. Over the next five years, licensees anticipate requesting
additional power uprates, which will affect the ability of NRC staff to maintain
established review schedules.

       High-Level Waste Disposal

According to the Nuclear Waste Policy Act, the DOE has the responsibility to
locate, design, build, and operate a repository for high-level nuclear waste. NRC
has the responsibility to license and regulate this facility. Over the past several
years, NRC has been preparing its license application review plan. DOE’s plans to
tender a license application to NRC for the construction of a permanent repository
for high-level nuclear waste at Yucca Mountain in Nevada were delayed by a court
ruling in FY 2004. The court ruling vacated the Environmental Protection Agency’s
(EPA) 10,000-year compliance period standard because it was not consistent with
the recommendation of the National Academy of Sciences, as mandated by
Congress. As a result, EPA needed to develop public health standards for the
planned high-level radioactive waste disposal facility at Yucca Mountain that will
protect the public health for 1 million years. EPA posted a notice of the proposed
standards in the Federal Register, established a period for public comment, and
will hold public hearings on the proposed rule during the comment period. NRC is
revising its regulations in this area, as Congress also mandated that NRC
incorporate the EPA standards in its regulations. On September 8, 2005, NRC
published a Federal Register notice proposing to amend its regulations to
implement EPA’s proposed standards.

The revised schedule for DOE to tender a license application has not yet been
established. Because a multitude of issues will need review in a congressionally
mandated 3 to 4 year time frame, NRC anticipates that the administrative




                                              8
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



proceeding to assess the repository will be an enormous undertaking. One
significant challenge for NRC is ensuring that all parties to the licensing process
and key decision makers have timely access to filings and exhibits involved with
the licensing process.

An additional delay resulted from a ruling by an NRC Atomic Safety Licensing
Board Panel that DOE improperly certified that it had met its regulatory obligation
to make all of its documentary material related to Yucca Mountain electronically
available via the NRC’s Licensing Support Network. This ruling was a significant
determination, as it is DOE’s certification that starts a six-month clock for the
earliest that NRC can docket DOE’s Yucca Mountain license application. DOE has
been working towards re-certifying that all of its documentary material related to
Yucca Mountain is electronically available. As of July 2005, over 3 million
documents had been loaded into the licensing support network. Recertification
has not yet been rescheduled.

Given the events of FYs 2004 and 2005, the ability to modify regulatory processes
to meet a changing environment will continue to be a prominent challenge for NRC
in FY 2006, as it relates to NRC’s high-level waste program.

Related Office of the Inspector General Work

     Audits

     •        Audit of NRC’s High-Level Waste Program
     •        Audit of the Reactor Program System
     •        Audit of NRC’s Generic Communications Program


     Investigation

     •        Adequacy of NRC’s Oversight of Vermont Yankee Power Uprate




                                              9
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




CHALLENGE 5
Implementation of information resources.

Federal agencies’ acquisition and implementation of information resources are
crucial to (1) support critical mission-related operations and (2) provide more
effective and cost-efficient Government services to the public. The necessary link
of information technology (IT) to NRC’s mission performance makes it important to
have decision-making processes which ensure that funds are invested and
managed to achieve high value outcomes at acceptable costs. NRC relies on a
wide variety of information systems to help it fulfill its responsibilities and support
its business flow. NRC, like other Federal agencies, continues to work towards
obtaining a good return on these investments. In recent years, NRC has created
large databases of publicly available information, including the High-Level Waste
Meta System, the licensing support network (LSN), the NRC Web site, and the
ADAMS public reading room.

The following sections highlight NRC’s efforts to strengthen and support the
agency’s business needs using information technology strategies.

       Project Management Methodology (PMM)

NRC is subject to several legislative mandates regarding its management of IT
investments. The OMB has issued circulars that describe policies to be
implemented at each agency. These policies are summarized and referenced in
OMB Circular A-130, “Management of Federal Information Resources.” In
addition, the Clinger-Cohen Act of 1996 requires each Agency head to design and
implement a Capital Planning and Investment Control process. The NRC
developed PMM to address these requirements.

       Homeland Security Presidential Directive 12 (HSPD-12)

On August 27, 2004, the President signed HSPD-12 requiring the development
and agency implementation of a mandatory government-wide standard for secure
and reliable forms of identification for Federal employees and contractors.
According to HSPD-12, secure and reliable forms of identification means
identification that:

   •   Is based on sound criteria for verifying an individual employee’s identity;

   •   Is strongly resistant to identity fraud, tampering, counterfeiting, and terrorist
       exploitation;

   •   Uses electronic methods of rapid authentication; and

   •   Is issued only by providers whose reliability has been established by an
       official accreditation process.

                                              10
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




The agency formed an HSPD-12 working group that includes representatives from
the Office of Administration’s Division of Facilities and Security/Security Branch;
Planning, Budgeting, and Performance Management Team; and the Office of
Information Services. This working group has been meeting on a bi-weekly basis
to discuss the requirements and impact of HSPD-12 and the associated guidance
publications.

NRC will have a challenge meeting the completion dates and having the resources
to conduct the activities.

         High-Level Waste (HLW) Meta System

NRC is developing the High-Level Waste Meta System (a system of systems) to
support the agency’s review and hearings pertaining to the DOE’s anticipated
application to build a high-level waste repository at Yucca Mountain. The HLW
Meta System is the collection of interdependent software applications, procedures,
and information technology needed to support NRC’s business activities
associated with the licensing process. For example, the system will interface with
ADAMS and the licensing support network and will include an Electronic
Information Exchange component to allow parties to submit, service, and access
documents. It will also include the Electronic Hearing Docket, which will serve as
the agency’s official docket; the Digital Data Management System, which will
submit exhibits and hearing transcripts to support hearing functions; and NRC’s
High-Level Waste Collection of records relevant to discovery. System
development is expected to cost approximately $9.5 million and NRC staff
anticipates that much of the system will be certified and accredited by April 2006.
The challenge for NRC will be to ensure that this important project stays on track in
order to effectively support the upcoming license application review process.

Related Office of the Inspector General Work

     Audits

     •        Independent Evaluation of NRC’s Implementation of the Federal
              Information Security Management Act (FISMA) for Fiscal Year 2005
     •        Audit of the Reactor Program System
     •        Audit of NRC’s Telecommunications Program
     •        Audit of NRC’s Policy and Practices Concerning Camera Cell Phones

     Investigation

     •        Theft of Cash and Credit Cards at NRC Headquarters




                                              11
                 Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




 CHALLENGE 6
 Administration of all aspects of financial management.

Sound financial management includes implementation of new internal control
requirements, preparation of financial statements in accordance with applicable
requirements, and efficient and effective procurement operations. A brief discussion
of these areas follows.

        New Internal Control Requirements

NRC’s challenge is to take systematic and proactive measures to implement new
OMB internal control requirements which become effective in FY 2006. The Office
of the Chief Financial Officer serves as the agency lead to implement the new
requirements of OMB Circular No. A-123 Revised, Management’s Responsibility for
Internal Control, December 21, 2004. This Circular provides Federal managers with
guidance on improving the accountability and effectiveness of Federal programs and
operations by establishing, assessing, correcting, and reporting on internal control.
The Circular, among other things, emphasizes the need for integrated and
coordinated internal control assessments that synchronize all internal control-related
activities. It provides updated internal control standards, as well as new specific
requirements for conducting management’s assessment of the effectiveness of
internal control over financial reporting.

        Financial Statements

While NRC received an unqualified audit opinion on its FY 2004 financial
statements, the audit opinion on the agency’s FY 2003 financial statements was
revised from unqualified to qualified due to the lack of evidential matter to support
the completeness of accounts receivable and revenue. The agency’s independent
auditors characterized NRC’s fee billing system as a material weakness.

        Procurement

NRC’s procurement of goods and services must be made in accordance with
Federal regulations and with an aim to achieve the best value for the agency’s
dollars in a timely manner. Agency policy provides that the NRC’s procurement of
goods and services support the agency’s mission and be planned, awarded, and
administered efficiently and effectively. Among the numerous challenges facing the
Agency in these areas are:

            •   Hiring and training new contract personnel,

            •   Keeping current with the Federal Acquisition Regulation (FAR),

            •   Ensuring adequate competition in awarding contracts,


                                                12
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



          •   Considering past-performance in awarding contracts,

          •   Identifying the need for contract audit services, and

          •   Monitoring purchase card transactions.

An additional challenge facing the agency is the need to focus efforts on
compliance with the FAR time standards for closing expired contracts and prompt
deobligation of excess funds, which would make those funds available for other
agency priorities.

Related Office of the Inspector General Work

    Audits

      •       Results of the Audit of the U.S. Nuclear Regulatory Commission’s
              Financial Statements for Fiscal Years 2004 and 2003
      •       Independent Auditors’ Report on the U.S. Nuclear Regulatory
              Commission’s Special-Purpose Financial Statements as of
              September 30, 2004, and for the Year then Ended
      •       Independent Accountants’ Report on the Application of Agreed-upon
              Procedures for Federal Intragovernmental Activity and Balances as
              of September 30, 2004
      •       Review of NRC’s Implementation of the Federal Managers’ Financial
              Integrity Act for Fiscal Year 2004
      •       Audit of the Budget Formulation Process
      •       Audit of NRC’s Contract Closeout Process

    Investigations

      •       Fraudulent Workers’ Compensation Program Claim by NRC
              Employee
      •       Fraudulent Workers’ Compensation Program Claim of Former NRC
              Employee
      •       Failure to Report Billing Errors to Independent Auditors
      •       Mischarging of Costs by NRC Contractor
      •       False Reporting of Recyclable Material by Government
      •       Misuse of Government Travel Card by SBCR Employee
      •       NRC Mischarging EPRI for Reviewing Generic Products
      •       Misuse of NRC Travel Card by ACRS Member
      •       Misuse of NRC Travel Card by OIP Employee
      •       Fraudulent Use of NRC Purchase Card
      •       False Claim of Small Business Status by NRC Licensee
      •       Fraudulent Use of NRC Travel Card Account Number by Persons
              Unknown
      •       Misuse of NRC Citibank Travel Card by Region I Employee

                                              13
                Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




 CHALLENGE 7
 Communication with external stakeholders throughout NRC regulatory
 activities.

The NRC believes that nuclear regulation is the public’s business and, therefore, it
should be transacted in an open and candid manner in order to maintain the public’s
confidence. Therefore, management should ensure that there are adequate ways of
communicating with and obtaining information from external stakeholders that may
have a significant impact on the agency achieving its goals. NRC established a
strategic goal which ensures openness that expressly recognizes that the public
must be informed about, and have a reasonable opportunity to participate in, the
regulatory processes. Because of the nature of its business, the agency needs to
interact with a diverse group of external stakeholders (e.g., the Congress, general
public, other Federal agencies, and various industry and citizen groups) with clear,
accurate, and timely information about NRC’s regulatory activities. This continues to
be a challenging task.

To this end, the agency has initiated efforts to improve cooperation and also
enhance public outreach with specific stakeholders. NRC’s Congressional Outreach
program has produced favorable results. The program was initiated in 2005 and is
directed at ensuring that the Congressional District offices are informed of NRC’s
activities in their Districts. Information discussed in this venue is broad and can
include such items as security, high-level waste, spent fuel storage, NRC
organization, and programs such as reactor oversight, materials, and Agreement
States.

Related Office of the Inspector General Work

     Audits

     •         Audit of NRC’s Baseline Inspection Program
     •         Audit of NRC’s High-Level Waste Program
     •         Audit of NRC’s Generic Communications Program
     •         Audit of the Reactor Program System

     Investigations

     •         Inaccurate Information Provided by NRC to Congressman
     •         Mishandling of Allegation by NRR Staff




                                               14
                Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




 CHALLENGE 8
 Intra-agency communication (up, down, and across organizational lines).

Effective intra-agency communications should occur with information flowing up,
down, and across the organization. Information should be communicated to
management and others within the organization who need it and in a form, and
within a time frame, that enables them to carry out their responsibilities.

NRC has instituted various actions to improve its internal communications over the
past year. The Director of Communications and technical communications
assistants are working to continually improve this area. The agency continues to
produce electronic “EDO Updates.” These represent timely and succinct
communications between the EDO and the entire staff. NRC’s internal Web site
addresses different types of employee concerns. NRC continues to hold “All
Employees” meetings as a mechanism for direct two-way communication between
the Commission and agency staff. Also, NRC’s Strategic Plan stresses the
importance of the role of internal communications in achieving the agency’s mission
and goals.

The Office of the Executive Director for Operations’ (OEDO) internal web page
provides various guidance to the staff, including guidance on communicating with
the Commission, the OEDO mission and history, new and archived EDO updates,
senior manager biographies, and OEDO staff contacts for various NRC program
offices and topics.

The agency has made progress on the “roadmap initiative” which is intended to be a
planning tool used to give the EDO’s office a six month view of office and regional
products, allowing early incorporation of senior management views, and reducing
burden by minimizing re-writes and last minute changes in direction. To improve
connectivity, Office Directors place their monthly roadmap reports in an ADAMS
folder for access by other Office Directors and Regional Administrators to determine
whether there are products that may require input or coordination.

Related Office of the Inspector General Work

     Audits

     •         Audit of NRC’s Baseline Inspection Program
     •         Audit of NRC’s High-Level Waste Program
     •         Audit of the Budget Formulation Process

     Investigation

     •         Failure to Report Billing Errors to Auditors



                                               15
                 Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




 CHALLENGE 9
 Managing human capital.

NRC faces current and emerging staffing challenges that could affect its ability to
maintain the skills base needed to carry out the agency’s mission. One of the
challenges faced, along with the rest of the Federal Government, is an aging
workforce. Retirement accounts for just over half of NRC’s attrition, which most
directly depletes the knowledge base. This makes identification of probable
retirements and plans for successful replacement of those skilled individuals a high
priority.

The challenge to be met by the NRC is preparing to replace an increasing number of
individuals who become eligible to retire, taking with them valuable skills and
institutional knowledge. However, not all individuals retire immediately upon
eligibility. At NRC, on average, employees stay about four years beyond their
retirement eligibility date.

NRC’s workforce must possess detailed knowledge and specialized technical skills
to fulfill its public health and safety mission. To maintain this expertise, NRC will
need to build its human capital in the technical, financial, and administrative areas.
In its Strategic Plan, NRC identified the management of human capital as a major
challenge because of declining workforce numbers, loss of institutional knowledge
and critical skills, and a shrinking labor pool.

NRC periodically assesses its human capital situation looking for ways to make
improvements to support the achievement of its mission and goals. Agency efforts
in critical skills staffing and training/development are described as follows:

       Critical Skills Staffing

NRC currently uses a wide variety of human capital policies and programs for
recruiting, hiring, training and development, and retention. The agency is challenged
by preparing for growth in current and emerging work requirements including license
renewals, applications for power uprates, potential licensing for high-level waste,
and new reactor projects. These factors will require an increase in staff resource
needs. Uncertainty of licensee schedules complicates the agency’s efforts to have
staff available with the right skills at the right time.

NRC measures the skills supply and demand using a strategic workforce planning
web-based tool. The system provides a means for managers to specify their near-
term and long-term skill needs and provides employees with a way to indicate their
level of expertise in these skills areas. The agency completes an annual information
call where managers identify continuing and newly anticipated skill gaps. Once this
information is analyzed, the Office of Human Resources works with managers to
plan and implement skill gap closure strategies.


                                                16
                  Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC




          Training/Development

The purpose of strategic planning for training and development is to ensure that
processes, infrastructure, evaluation, and feedback methodologies are in place so
that the agency’s training and development activities mature and maintain the critical
knowledge competencies needed to execute the agency’s strategic mission. To
accomplish this, the Office of Human Resources is developing a Strategic Plan for
training and development, which outlines a training and development vision, mission,
and strategic outcome for the agency. The focus is on alignment with agency goals
and strategies and to provide for training support for staff. NRC’s plan in this area
outlines a number of goals, some of which include:

          •   Focus on optimizing resources spent to conduct high quality training to
              meet the needs of a diverse workforce,

          •   Provide and support comprehensive, integrated, competency-based
              programs for staff, and

          •   Use training resources (expertise, facilities, equipment, and analytical
              tools) to effectively support other agency programs, including incident
              response and international activities.


Related Office of the Inspector General Work

      Audit

      •          Audit of NRC’s Baseline Inspection Program


CONCLUSION

Although the nine challenges identified in this report on the last page are distinct,
they are also interdependent. One of the OIG’s strategic goals is to improve the
economy, efficiency, and effectiveness of NRC corporate management. The
Inspector General’s identification of the most serious management challenges facing
the agency and the OIG’s commitment to ensuring the integrity of NRC programs
and operations help achieve this goal. Further, as evidenced by this review, the
agency continues to take steps to address the management challenges through
planning and in day-to-day operations.

cc:       Commissioner Merrifield
          Commissioner Jaczko
          Commissioner Lyons
          Luis Reyes, EDO
          William Dean, OEDO

                                                 17
                Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



                Most Serious Management Challenges
              Facing the Nuclear Regulatory Commission
                       As of September 30, 2005
                (as identified by the Inspector General)



Challenge 1     Protection of nuclear material used for civilian purposes.

Challenge 2     Protection of information.

Challenge 3     Development and implementation of a risk-informed and
                performance-based regulatory approach.

Challenge 4     Ability to modify regulatory processes to meet a changing
                environment.

Challenge 5     Implementation of information resources.

Challenge 6     Administration of all aspects of financial management.

Challenge 7     Communication with external stakeholders throughout NRC
                regulatory activities.

Challenge 8     Intra-agency communication (up, down, and across
                organizational lines).

Challenge 9     Managing human capital.




                                               18
               Inspector Generals’ Assessment of the Most Serious Management Challenges Facing NRC



Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety andT
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Luis A. Reyes, Executive Director for Operations
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV




                                              19
